         Office of Inspector General




September 28, 2006

ALEXANDER LAZAROFF
VICE PRESIDENT, EASTERN AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Eastern Area (Report Number DR-MA-06-006)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Eastern Area (Project Number
06XG016DR004). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Eastern Area. This is one in a series of reports on Delivery and Retail
operations issued under the Value Proposition Agreement between the Vice President,
Delivery and Retail, and the U.S. Postal Service Office of Inspector General Delivery
and Retail directorate. The information in this report will be included in a nationwide
capping report assessing implementation of Delivery and Retail SOP.

Eastern Area officials implemented the Delivery and Retail SOP for city and rural
delivery and Function 4 (customer service) operations. Implementation included
training supervisors and managers, developing action steps for “vital few” units, and
outlining future plans to complete remaining reviews and certifications by the end of
fiscal year (FY) 2006. Officials also certified delivery and retail units under Morning
SOP and Rural Delivery SOP and conducted Function 4 reviews. Based on our review
of the SOP for city and rural delivery and Function 4 SOP, the Eastern Area
implemented each SOP component except for selected aspects of Delivery Point
Sequencing (DPS). The area needed to improve their DPS percentage because it was
below the national goal in FY 2005. During our review, Eastern Area officials
implemented corrective action to improve their DPS percentage.

Additionally, area officials were continuing to address the challenges associated with
the “vital few” performers. We recognize area officials’ concern, and we plan to address
this issue in the capping report to Postal Service Headquarters.
We provided management with a copy of the report and they had no issues with the
findings. We are making no recommendations in this report to Eastern Area
management.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Elizabeth Schaefer
    Joshua Colin
    Nancy Digiacoma
    Dennis Carothers
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-06-006
 Eastern Area

                                          INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    37,000 post offices and retail outlets. To receive and deliver
                                    the mail, the Postal Service has an annual field budget of
                                    about $60 billion, of which roughly 51 percent is used for
                                    delivery and retail operations. Annual salary and benefits in
                                    fiscal year (FY) 2006 for rural and city carriers total about
                                    $22 billion and around $8 billion for Function 4 (customer
                                    service) operations. The Eastern Area’s FY 2006 budget is
                                    $2.4 billion for city, $1.1 billion for rural delivery operations,
                                    and $1.04 billion for Function 4 operations. The area is
                                    responsible for 13 districts and services approximately
                                    6,415 delivery and retail units.1

                                    To ensure efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement the Standard Operating Procedures (SOP)
                                    beginning in FY 2006 to establish standard practices
                                    for managing all delivery and retail functions. In
                                    November 2005, Postal Service senior management
                                    officials requested audit assistance from the U.S. Postal
                                    Service Office of Inspector General (OIG) to assess
                                    implementation of the SOP and determine how the area is
                                    monitoring the units on the “vital few”2 list. In response to
                                    the request, the OIG began its nationwide review of the
                                    Postal Service’s implementation of SOP in January 2006.

                                    The SOP consist of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal officials must
                                    implement the SOP consistently and establish a review
                                    process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for
                                    developing plans that will assure that the SOP are
                                    understood and functional.

                                    Morning SOP (AMSOP) is an important component of city
                                    delivery SOP. AMSOP standardizes daily city carrier
                                    functions to align actual workhours to base workhours. The


1
  Some of these units do not have all three components – city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.
2
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4
operations, and require specific management actions.


                                                       1
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-06-006
 Eastern Area

                                    FY 2006 goal is to certify3 all level 224 and above
                                    Delivery Operations Information System (DOIS) sites by
                                    September 30, 2006.

                                    The Rural Delivery SOP (RDSOP) standardizes daily rural
                                    carrier functions to align actual workhours to standard
                                    workhours. The FY 2006 goal is to certify5 75 percent of
                                    units with 10 or more rural routes and those units identified
                                    as “vital few.”

                                    The Function 4 operations goal is to provide a standardized
                                    and comprehensive structure for the development of an
                                    integrated review cycle that continually identifies and
                                    quantifies savings opportunities. In addition, management
                                    should conduct Function 4 Business Reviews6 to identify
                                    units with the largest opportunity for workhour
                                    improvements.

                                    A key component of the SOP is the identification of “vital
                                    few” units. These units have the largest opportunity for
                                    improvement in city and rural delivery and Function 4
                                    operations, and require specific management actions.
                                    Postal Service Headquarters provides area officials with the
                                    “vital few” list quarterly based on the performance of the
                                    previous quarter. The area monitors the “vital few” units
                                    and develops action plans to correct their performance
                                    issues in city and rural delivery and Function 4 operations.

                                    Postal Service Headquarters provided delivery and retail
                                    standardization training to Area Managers of Delivery
                                    Support Programs on September 8 and 9, 2005. In
                                    addition, Postal Service Headquarters issued a
                                    memorandum on October 13, 2005, to each area outlining
                                    the area’s responsibility for training managers on the SOP.
                                    Each area was responsible for training districts by

3
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if
supervisors are matching workhours to workload, time attendance reports, office configuration, and use of
authorized overtime. Units must achieve a score of 95 or greater for certification.
4
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total
number of workload service credits attributed to the facility. The credits are based on a combination of the
responsibilities of the postmaster, the number of employees, the size of the facility, and various operations
performed within each post office.
5
  District program managers conduct a formalized rural management review focusing on improving efficiency
in an evaluated workload environment to more closely align actual to standard hours, reduce overtime, and
reduce auxiliary assistance hours. Units must achieve a score of 85 or greater to achieve certification.
6
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result
in closer alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews
and an Integrated Operations Business Plan Committee provides critical support to ensure attainment of
major organizational targets.


                                                      2
Delivery and Retail Standard Operating Procedures –                                                 DR-MA-06-006
 Eastern Area

                                   October 31, 2005. The districts were responsible for
                                   completing training to all levels of management by
                                   November 15, 2005. Further, Postal Service Headquarters
                                   requested that each area establish a review process to
                                   validate whether the SOP were adopted to ensure
                                   consistent implementation. Finally, Postal Service
                                   Headquarters informed area officials that the “vital few” list
                                   requires their attention and monitoring, which includes
                                   action plans to correct performance issues in city and rural
                                   delivery and Function 4 operations.

    Objective, Scope, and          Our overall objective was to assess implementation of
    Methodology                    Delivery and Retail SOP in the Eastern Area. Specifically,
                                   we determined whether Eastern Area officials have
                                   implemented SOP in city and rural delivery and Function 4
                                   operations. The scope of this review focused on whether
                                   area officials implemented the SOP at the area level
                                   and excluded review at selected district and delivery and
                                   retail units within the area. We did not determine the
                                   effectiveness of the implemented SOP at this time, but
                                   plan to perform future reviews and identify opportunities
                                   to increase revenue, reduce costs, and improve customer
                                   service.

                                   We visited Postal Service Headquarters and the Eastern
                                   Area to interview management officials and obtain
                                   performance data. We judgmentally selected the Eastern7
                                   Area to review based on discussions with Postal Service
                                   Headquarters Delivery and Retail officials and review of
                                   FY 2006 delivery and retail performance data for week 10.8
                                   We reviewed and analyzed performance data obtained
                                   from Postal Service systems from October 2005 through
                                   May 2006 and discussed the results with Postal Service
                                   officials.9 We relied on data from these systems to conduct
                                   interviews and analysis. However, we did not directly audit
                                   these systems, but discussed with Postal Service officials
                                   the relevance of the data to delivery and retail performance
                                   during our fieldwork.


7
  We performed an area level review in the Eastern, Pacific, Western, Northeast, and New York Metro
Areas. We performed work at the area and selected districts and delivery and retail units in the Capital
Metro, Great Lakes, Southeast, and Southwest Areas.
8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up
processes began in week 14, with year-to-date information available beginning with week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date
and week 34 year-to-date.




                                                    3
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-006
 Eastern Area

                                We conducted our review from January through
                                September 2006 in accordance with President’s Council on
                                Integrity and Efficiency, Quality Standards for Inspections.
                                We discussed our observations and conclusions with
                                appropriate management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           The OIG has issued 12 audit reports related to delivery and
                                retail operations. While none of these reports are directly
                                related to our objective, they do identify opportunities to
                                improve management of delivery and retail operations. The
                                details of the reports are included in Appendix A.




                                                4
Delivery and Retail Standard Operating Procedures –                                                            DR-MA-06-006
 Eastern Area

                                                 RESULTS
 Implementation of                    Eastern Area officials implemented the SOP in city and rural
 Standard Operating                   delivery and Function 4 operations which included:
 Procedures in the
 Eastern Area                             •    Training supervisors and managers responsible for
                                               city and rural delivery and Function 4 operations for
                                               further implementation by the district and unit levels.

                                          •    Developing action steps for “vital few” units.

                                          •    Outlining future plans to complete reviews on the
                                               remaining AMSOP, RDSOP, and Function 4
                                               Business Review locations by September 30, 2006.

                                      Eastern Area officials had certified 50 percent (247 of 496)
                                      of their level 22 and above DOIS sites under AMSOP.
                                      During FY 2006, week 34 year-to-date, the city delivery
                                      office hours (percent to standard) exceeded standard
                                      workhours by 102.51 percent. This was a decrease in
                                      hours from week 19 year-to-date, when the office hours
                                      exceeded standard workhours by 102.97 percent. During
                                      this same period, the deliveries per hour exceeded the
                                      same period last year percentage by 1.20 percent. This
                                      was an increase from week 19 year-to-date, when the
                                      deliveries per hour percentage exceeded the same period
                                      last year percentage by 0.9 percent.10

                                      Further, area officials had certified 14 percent (75 of 520) of
                                      their rural units.11 During FY 2006, week 34 year-to-date,
                                      rural delivery total actual workhours exceeded standard
                                      workhours by 4.18 percent. This was a decrease from week
                                      19 year-to-date, when the actual hours exceeded the
                                      standard hours by 5.3 percent.

                                      Finally, area officials had conducted Function 4 Business
                                      Reviews at 51 percent (154 of 299) of their planned
                                      locations.12 In addition, during FY 2006, week 34 year-to-
                                      date, Function 4 total earned hour variance was 1.72 million
                                      workhours. This was an increase from week 19 year-to-
                                      date when the earned hour variance was 857,311
                                      workhours. During the same period, the window staffing
                                      efficiency for week 34 year-to-date was 77.2 percent. This

10
   We are planning a future review on city carrier street performance.
11
   Includes only those offices identified as "vital few” in Quarter II or that have 10 or more rural routes.
12
   Information as of April 2006.



                                                         5
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-06-006
 Eastern Area

                                    was a decrease from week 19 year-to-date when the
                                    window staffing efficiency was 79.6 percent.

                                    Based on our review of the city and rural delivery and
                                    Function 4 SOP, the Eastern Area implemented each
                                    component of the SOP except for selected aspects of
                                    Delivery Point Sequencing (DPS). (See Appendix B.) The
                                    area needed to improve their DPS percentage because it
                                    was below the national goal in FY 2005.13 During our
                                    review, Eastern Area officials implemented corrective action
                                    to improve their DPS percentage by conducting meetings
                                    with district officials to improve DPS performance.
                                    Therefore, we are not making any recommendations.

                                    Additionally, area officials were continuing to address the
                                    challenges associated with the “vital few” performers.
                                    We recognize area officials’ concern, and we plan to
                                    address this issue in the capping report to Postal Service
                                    Headquarters.




13
   We are planning a future review that will incorporate DPS percentages, to identify opportunities to
increase revenue, reduce costs, and improve customer service.


                                                      6
Delivery and Retail Standard Operating Procedures –                                         DR-MA-06-006
 Eastern Area




 Delivery Point                 The Eastern Area did not achieve the national average
 Sequencing                     for DPS mail due to inaccuracy of database information
                                and inaccurate mail volume recording. Their DPS mail
                                percentage was about 75 percent (or approximately
                                2 percent below the national average).

                                DPS is the process of getting barcoded mail into the
                                carrier’s walk sequence so the carrier can deliver it without
                                manual sorting before going to the street. The goal of DPS
                                is to improve efficiency and thus reduce cost. Increasing
                                DPS letters percentage equates to decreasing cased letter
                                volume and, therefore, time spent by the carriers in the
                                office. As shown in Table 1, nationally, the DPS percentage
                                for FY 2005 was approximately 77 percent with some areas
                                achieving DPS percentages in the 80s.

                                       Table 1. Average Delivery Point Sequencing
                                                   Percentages for FY 2005

                                                           Area        Actual DPS
                                                                       % (FY 2005)

                                                      Western                82
                                                      Northeast              82
                                                      Southwest              80
                                                      Southeast              79
                                                      Pacific                76
                                                      Great Lakes            76
                                                      Eastern                75
                                                      New York Metro         72
                                                      Capital Metro          71

                                                      National               77

                                  Source: Information provided by Postal Service Headquarters officials



                                With the Postal Service continuing to have delivery growth,
                                an increase in DPS letters is essential to decreasing cased
                                letter volume and time the carriers spend in the office.
                                During our review, Eastern Area officials implemented
                                corrective action to improve their DPS scores, which
                                included meetings with district officials on the accuracy of
                                database information and accurately recording mail volume
                                to improve performance. Since officials implemented
                                corrective action, we are not making any recommendations.



                                                7
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-006
 Eastern Area



 Vital Few Units                Area officials were continuing to address the challenges
                                associated with the “vital few” units. Eastern Area officials
                                indicated that, although they were implementing the SOP,
                                “vital few” units were not performing to standards due to the
                                challenges associated with changing the mindset of
                                individuals responsible for accepting and implementing the
                                managerial processes and procedures to improve efficiency.
                                Area officials were conducting weekly meetings with district
                                officials on the city and rural delivery and Function 4
                                operations, which include discussions on the greatest
                                opportunities for improvement. In addition, area officials
                                developed the “Retail Optimization Plan” to review five
                                offices in each district that have the greatest negative effect
                                on Function 4 reviews. We recognize area officials’
                                concern, and we plan to address this issue in the capping
                                report to Postal Service Headquarters.




                                                8
Delivery and Retail Standard Operating Procedures –                            DR-MA-06-006
 Eastern Area




                                      APPENDIX A

                            PRIOR AUDIT COVERAGE
City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 68,177 unjustified
hours over the 5-month period from January 1 through May 31, 2005, that were
not supported by volume or workload (total unrecoverable costs of $765,487).
We also noted that supervisors and managers did not always view DOIS reports
in a timely manner to manage operations, consistently use Managed Service
Point (MSP) to monitor city letter carriers’ street time to correct negative trends,
or properly document letter carriers’ unauthorized overtime occurrences and take
corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation
Audit (Report Number FF-AR-06-096, dated March 20, 2006). At most units,
delivery operations managers and supervisors had begun implementing the
AMSOP to create consistency and standardization among city delivery carriers.
Management at 28 of the 36 units had begun the AMSOP implementation. Of
those, 11 had obtained certification and 17 were at various stages of certification.
At the time of our work, eight units had not begun implementation. Several
factors contributed to units not being certified. These factors included issues with
the mail arrival agreement with the processing and distribution plant, posting and
following the AMSOP, and Function 4 activities. We made no recommendations
in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002,
dated February 8, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Detroit District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 59,208 unjustified hours
over the 5-month period from January 1 through May 31, 2005, that were not
supported by volume or workload (total unrecoverable costs of $723,586). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined
opportunities to improve the quality of Address Management System data and


                                                9
Delivery and Retail Standard Operating Procedures –                          DR-MA-06-006
 Eastern Area

put $988,945 of processing and delivery costs over the next 10 years to better
use. Management agreed with our findings and recommendations and the
$988,945 in funds put to better use.

City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019,
dated September 29, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Chicago District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 78,248 unjustified hours
over the 5-month period from September 1, 2004, through January 31, 2005, that
were not supported by volume or workload (total unrecoverable costs of
$2,020,200). We also noted supervisors and managers did not always view
DOIS reports in a timely manner to manage operations, consistently use MSP to
monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective
action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-
013, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Santa Ana District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 83,864 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $2,127,852). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-
014, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the San Diego District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 53,835 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $1,423,935). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-
009, dated December 2, 2004). The report outlined opportunities to improve
management of city letter carrier operations in the Rio Grande District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected that the three delivery facilities had 5,318 unjustified
hours (at an estimated cost of $193,947) not supported by volume or workload


                                               10
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-006
 Eastern Area

over a 5-month period. We reported 2,543 of the unjustified hours – or $92,762 –
as unrecoverable costs. We also noted that supervisors and managers did not
effectively use DOIS to manage daily operations, and delivery unit supervisors
and managers did not consistently perform street management or effectively use
MSP to monitor city letter carriers’ street time to correct negative trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014,
dated September 30, 2004). The Postal Service can improve the effectiveness
and efficiency of the Function 4 process in meeting or exceeding its program
goals of monitoring and measuring the potential savings of operations.
Specifically, Postal Service managers could improve operations by fully utilizing
the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number
DR-AR-04-005, dated July 26, 2004). The report stated that opportunities exist
to improve Dallas District city letter carrier office preparation operations.
Specifically, impediments existed that adversely affected delivery
supervisors/managers’ ability to adequately match workhours with workload. In
addition, city letter carriers’ work activities were not always appropriate to ensure
they departed the delivery unit as scheduled. Further, supervisors/managers did
not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth
District (Report Number DR-AR-04-001, dated June 22, 2004). The report stated
that street management and route inspections were generally efficient and
effective at the XXXXXX and XXXXXXXX Stations. Delivery unit supervisors
monitored city delivery carrier’s street time to conserve workhours by performing
at least the minimum number of required street observations. However, while a
route inspection was conducted at the XXXXXX Station delivery unit, post route
adjustment procedures were not followed to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report
Number TD-AR-03-011, dated July 28, 2003). The report stated that early
reporting wasted carriers’ morning time and exposed the Baltimore District to
potential unnecessary evening overtime costs. It was noted supervisors/
managers were not using DOIS to manage carrier schedules and, consequently,
could not use the system to evaluate carrier scheduling or take corrective action.




                                               11
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-006
 Eastern Area



                                          APPENDIX B

          EASTERN AREA IMPLEMENTATION OF
DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES


                                    Eastern Area
                                                                            SOP Areas
                                      Officials            Dates
              SOP                                                              for
                                    Implemented             SOP
              Areas                                                        Improvement
                                     Procedures         Implemented              14

              City Delivery
              AMSOP                      Yes              09/2005                No
              Integrated                                                         No
              Operations                 Yes              09/2005
              Delivery Point
              Sequencing                 Yes              09/2005               No *
              Collection Point                                                  No
              Management                 Yes              09/2005
              Scanning
              Performance                Yes              09/2005                No
              Matching
              Workhours to
              Workload                   Yes              09/2005                No
              Volume
              Recording                  Yes              09/2005                No
              Route
              Evaluations and
              Adjustments                Yes              09/2005                No
              “Vital Few”
              Service
              Improvements               Yes              09/2005                No
              Rural Delivery
              RDSOP                      Yes              09/2005                No
              Growth and
              Delivery Point
              Mgmt.                      Yes              09/2005                No
              Function 4
              Function 4
              Business Review            Yes              09/2005                No
              RDM WOS15                  Yes              09/2005                No


                *Corrective action was taken during the review.

                Source: Information provided by Postal Service Eastern Area officials


14
  OIG determination based on review results.
15
  The Retail Data Mart Window Operations Survey (RDM WOS) tool is used during standardized Function 4
on-site reviews at retail postal units. The tool provides information on the retail workload based on the
number and types of transactions conducted at the retail counter.




                                                   12
